2M.4
IN THE SUPREME COURT OF THE UNITED STATES

supreme Court, U.S"

FILED

GREGORY BARTUNEK,

JAN 1 9 2021

Petitioner/

L OFFICE OF THF i-i CRK

V.
HALL COUNTY, NEBRASKA AND TODD BAHENSKY,
Respondents.

On Petition for a Writ" of Certiorari to the
United States Court of Appeals for the Eighth Circuit

PETITION FOR A WRIT OF CERTIORARI

Gregory P. Bartunek
29948-047
Federal Correctional Instution
P.O. Box 9000
Seagoville, TX 75159

RECEIVED
JAN 2 7 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

>

I.

QUESTIONS PRESENTED

Whether failing to provide consistent and reliable opportunities for

pretrial detainees to exercise their religious freedoms is a violation of
the First/ Fifth, and Fourteenth Amendments of the U. S. Constitution.

II.

What is the proper standard for analyzing pretrial detainees religious

free exercise claims under the First, Fifth, and Fourteenth Amendments of
the U.S. Constitution?

i

LIST OF PARTIES
All parties appear in the caption of the cover page.

RELATED CASES
United States v. Bartunek/ D. Neb., 8:17CR28

ii

TABLE OF CONTENTS
Questions Presented

i

List of Parties

ii

Related Cases

Hi

Table of Contents

.. iii

Table of Authorities

iv

Opinions Below

11

Constitution Provisions/ Treaties, Statutes, Ordances, and Regulations • * . 1
Statement of the Case

. 1

Reasons for Granting the Writ

5

Conclusion

[1]
[2]
[3]

t4]
[5]
[6]
[7]
[8]
[9]
[10]

11

Appendix
Judgment of the Court of Appeals for the Eighth Circuit
Amendment I of the U.S. Constitution
Amendment V:. of 1 the. U."S£. Constitution •
Amendment XIV of the U.S. Constition
18 U.S.C. § 2252
18 U.S.C. § 2252A
18 U.S.C. § 3142
42 U.S.C. § 2000cc
Affidavit of Todd Bahensky
Email from Craig Gottschalk
Letter from Bartunek to District Court
Affidavit of Gottachalk
Grievance Reagarding Church
Appeal to Grievance

[11]
[12]
[13]
[14]
[15]
[16]

Letter from Bartunek to Bahansky
Letter from Bahensky to Bartunek

[17]

U.S. Marshal's Agreement with HCDC

iii

TABLE OF AUTHORITIES
Cases
4, 5

Bell v. Wolfish, 441 US 520 (1979)
Church of Lukumi v, Haileah, 508 US 520 (1993)

6

Cruz v. Beto, 405 US 319 (1972)

7

Cutter v. Wilkinson, 544 US 709 (2005)

3, 7

Green v. Solano County Jail, 513 F.3d 982 (9th Cir. 2008)

8

Love v.. Reed, 216 F.3d 682 (8th Cir. 2000)

8

Murphy v. Collier, 139 S. Ct. Ill (2019)

7

Murphy v. Missouri Dept, of Corr • / 372 F.3d 979 (8th Cir. 2004)

8

O'Lone v. Shabazz, 482 US 342 (1987)

3, 6, 10

Patel v. United States Bureau of Prisons, 525 F.3d 807 (8th Cir. 2008) ... 4
Smith v. Copeland, 87 F.3d 265 (8th Cir. 1996)
Turner v. Safley, 482 US 78 (1987)

4
4, 6

United States v. Lee, 455 US 252 (1982)

6

United States v. Vita, 653 F. Supp. 320 (E.D.N.Yi 1986)

5

Wisconsin v. Yoder, 406 US 205 (1972)

6

Statutes
18 U.S.C. § 2252

1

18 U.S.C. § 2252A

1

18 U.S.C. §:■ 33.42

1, 5, 8, 9

18 U.S.C. § 3231

1

28 U.S.C. § 1254

1

42 U.S.C. § 2000CC

1, 7, 8, 10
U. S. Constitution

Amendment I

1, 4, 5, 7, 9

Amendment V

1, 4,"7, 9

iv

Amendment XIV

1/ 4, 5/ 7/ 9
Other Authorities

Bail Reform Act of 1984

5, 10

RULIPA

7, 10

v

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a Writ of Certiorari issue to
review the judgment below.
OPINIONS BELOW
The Opinion of the United States Court of Appeals for the Eighth
Circuit appears at Appendix [1] to the petition and is unreported.
JURISDICTION
The judgment of the Court of Appeals for the Eighth Circuit was entered
Jurisdiction is
on November 4, 2020. This Petition has been timely filed.
proper under 28 U.S.C. § 1254.
CONSTITUTIONAL PROVISIONS# TREATIES/ STATUTES# ORDANCES# AND REGULATIONS
Amendments 1/ V# and XIV of the U.S. Constitution
18 U.S.C. § 2252# § 2252A, § 3142 and 42 U.S.C._§_2QQGcc
STATEMENT OF THE CASE
Bartunek was a pretrial detainee charged with violating: Count I
18 U.S.C. § 2252A(a)(2) Distribution, and Count II - 18 U.S.C. § 2252(a)(4) (B)
Possession of child pornography.

The United States District Court for the

District of Nebraska had jurisdiction under 18 U.S.C. § 3231.
Bartunek was arrested on February 16, 2017 and detained at the Douglas
County Department of Corrections ("DCDC") pending trial.

While at DCDC,

Bartunek was housed in various general housing units, including the
Religious Mod and the Veterans Mod.

During his entire stay at DCDC, he had

acces to on-site Ordained Ministers ("Pastors"), weekly Christian Church
Services, bible studies, and communion when requested.
In April 2018, Bartunek was transferred to Hall County Department of
Corrections ("HCDC"), where he was held as a pretrial detainee until
1

October 2018.

HCDC was over 100 miles from Bartunek's residence.

to his arrest, he had no prior convictions.

Prior

However, HCDC mistakenly

classified him as a Medium 3 because they incorrectly believed him to be a
Registered Sex Offender ("RSO").

(See Appendix [2]).

Because of this, he

was housed in the Maximum Security Unit, segregated from.the general
population.

Then unit housed 32 pretrail detainees, illegal immigrants, and

convicted felons in two-men cells.

Neither HCDC nor the U.S. Marshals gave

any reason why Bartunek was removed from the general population at DCDC and
transferred to this Maximum Security Unit at HCDC.
HI).

(See Appendix [3] at

Although Bartunek asked to be housed in a different unit at HCDC,

their policies would not permit it.

(See Appendix [2] at It 5).

Bartunek is a practicing Christian,

His sincerly held beliefs and

practices include attending weekly Christian group services conducted by an
ordained minister, communion, and pastoral visits.

(See Appendix [4]).

While at DCDC, Bartunek ahd access to various programs and services to
accomodate his beliefs and practices.

However, during Bartunek's entire

six month stay at HCDC, he had no access to a pastor, group services,
communion, or any other religious programs, whatsoever,

Neither did any

other inmates housed with Bartunek in the Maximum Security Unit, because HCDC
relied on undependable outside volunteers.

"Church Services rely completely

upon the time and availability of volunteers to hold such services and are
scheduled weekly."

(See Appendix [3] at H 6).

"HCDC staff had difficulty locating any groups or persons who were
willing to offer religious programs consistently to the maximum.
security unit, which is designed to house those accused or convicted
of violent crimes, serious felonies, and those accused of sexual
crimes against children, Even when such programs can be scheduled,
the leaders will unexpectedly cancel or no-show." (See Appendix
[5] at 11 7).
According to HCDC, church was scheduled in Bartunek's unit on 11 occassions,
2

but only one time did the volunteers arrive.

(See Appendix [5] at II 6).

Even though Bartunek and other iinmates in his unit signed up for the weekly
services; they were never held while he was at HCDC.

(See Appendix [6]).

When Bartunek grievanced the situation; HCDC confused him with another inmate
who had also grievanced the same issue.

(See Appendix [3] at II 5).

Bartunek also appealed his grievance; but it went unanswered.

[7]).

(See Appendix

Therefore; he wrote a letter to Director Todd Bahensky telling him

that he needed a weekly visit by a Christian Pastor; but had. never seen one
since he arrived.

(See Appendix [8] at p. 2).

However; Bahensky refused

to do anything, stating that HCDC was not responsible for providing access
to Church/Bible Study programs or Clergy.

(See Appendix [9] at H 11).

HCDC claimed that Bartunek's right to exercise his religion was not
infringed because no one at HCDC prevented Bartunek from freely exercising
his religion.

(See Appendix [5] at 11 8).

However, HCDC's defacto policy

of using unreliable volunteers did in fact prevent Bartunek from freely
exercising his religion.

Being in a strange city, hundreds of miles from

his home, Bartunek knew of no local Pastors, nor did he have any reasonable
way of contacting them.

Furthermore, he was never offered any Pastor lead

group worship opportunities.or other religious programs.

"Instutional

residents' rights to practice their faith is at the mercy of those running
the instution."

Cutten v. Wilkinson, 544 US 709, 721 (2005).

In this case,

the institution's:.;inactions effectively prevented Bartunek and the other
inmates of the Maximum Security Unit from practicing their faith.
"Especially trained Chaplins, religious instruction and counselling,
together with adequate facilities for group worship of the inmate's
choice, are essential elements in the program of a correctional
institution." O'Lone v., Shabazz, 482 US 342, 362 n. 4 (1987)

3

The Court of Appeals for the Eighth Circuit ("COA") ruled that
Bartunek's First Amendment free exercise claim failed based on standards
set forth in Patel v. United States Bureau of Prisons, 515 F.3d 807, 813-15
(8th Cir. 2008).

(See Appendix [1]).

According to Patel:

"To substantially burden an inmate's free exercise of religion, a
prison regulation — must significantly inhibit or constrain conduct
or espression that manifests some central tenet of a person's
iondividual religious beliefs; must meaninfully curtail a person's
ability to express adherence to his or her faith; or must deny a
person reasonable opportunities to engage in those activities that
are fundamental to a person's religion." (Id.).
However, according to these standards, HCDC did substantially burden
Bartunek's free exercise of his religion.

As previously stated, HCDC

deprived Bartunek any "reasonable opportunities" to have a pastorial visit,
to attend;religious group services, or to take communion, practices that
were "fundamental" to his religion.

Furthermore, Bartunek's case is

distinguishable from Patel in several significant ways.

Unlike Patel,

Bartunek had no alternatives avaiable to him to be able to practice his
faith.

Also, Bartunek was a pretrail detainee, not a convicted prisioner.
"The burden to establish constitutional violations is lighter for
pretrial detainees than for convicted prisoners." Smith v. Copeland,
87 F.3d 265, 268 n. 4 (8th Cir. 1996), quoting Bell v. Wolfish, 441
US 520, 535 n. 16 (1979).
Finally, Bartunek was transferred from a general population minimum

security unit in one jail to an isolated maximum security unit in another
jail, far removed from his home and appointed counsel.

This transfer

severly restricted Bartunek's liberty, and no reason was given as to why
Bartunek was transferred.

This transfer violated Bartunek's due process

rights under the Fifth and Fourteenth Amendments, and resulted in violations
of his First and Fourteenth Amendments, but was not "related to legitimate
penological interests."

Turner v. Safley, 482 US 78, 89 (1987).

4

REASONS FOR GRANTING THE WRIT
Bartunek's case allows the Supreme Court to give guidelines as to the
proper standard for analysis of pretrial detainee's free exercise claims.
Bartunek's case is distinguishable from other cases that this Court has
considered because: 1) it is specific to a free exercise of religion claim;
2) it deals with pretrial detainees' rights rather than convicted criminals;
3) Bartunek's rights were denied for a significant amount of time; and 4)
Bartunek's rights were violated not by what HCDC did/ but rather, by what
they failed to do to preserve his rights.
"A person lawfully committed to pretrial detention Has not been
adjucated guilty of any crime. Under such circumstances, the
Government concededly may detain him to secure his presence at trail
and may subject him to restrictions and conditions of the detention
facility so long as those conditions and restrictions do not amount
to punishment, or otherwise violate the constitution." Bell at 536-37.
Bartunek's constitutional violations arose due to the fact that
Bartunek was denied bail, incarcerated in jails harboring known violent and
dangerous criminals, and treated no differently than those so convicted.
"Bail determinations frequently do not focus on individual defendant,
but only on the nature of the crime charged." Bell at 563 n. 1.
This was true in 1979 before the Bail Reform Act of 1984, and as in
Bartunek's case, remains so today.

The Bail Reform Act requires that

v

pretrial detention be imposed in a place of confinement "separate, to the
extent practicable, from persons awaiting or serving sentences or being held
in custody pending appeal."

18 U.S.C. § 3142(i)f2).

When such facilities

are not available, detainees are denied the liberty consistent with the
limited purpose of that detention.
320, 336 (E.D.N.Y. 1986).

United States v. Vita, 653 F. Supp.

When Bartunek was first incarcerated, his First

and Fourteenth Amendment rights were somewhat limited.

But the moment that

he was transferred to HCDC, he lost those rights completely.
5

The standards for determining whether a government's actions impinge
on an individual's constitutional rights are dependent on the status of the
individual—free/ pretrail detaineej confined to an institution/ or convicted
criminal-? -the constitutional right being impinged—free speech/ freedom of
religion/ due process/ etc.; the government's reason or interest in impinging
on the right; and the duration and extent of the impingement.
At one end of the spectrum are cases involving "free", citizens.
those

In

cases/ the government may justify a limitation on religious freedom

by showing that it had a "compelling government interest" and "narrowly
taylored to advance that interest" Church of Lukumi v. Haileah/ 508 US 520/
531-32 (1993); it was essential to accomplish an "overriding government
interest" United States V. Lee, 455 US 252/ 257-58 (1982); or that the
government's interest was "of the highest order."

Wisconson v. Yoder/

406 US 205/ 215 (1972).
On the other end of the spectrum are cases involving convicted
criminal's rights.

In those cases/ when a prison's regulation or policy

impinges on an inmate's sincerely held religious beliefs/ "the regulation is
valid if it is reasonably related to a legitimate peneological interest."
O'Lone v. Shabazz/ 482 US 342, 349 (1987).

See also Turner at 89.

According to Turner:
In determining whether a regulation is reasonable, the courts should
consider: 1) whether there is a valid, rational connection between the
regulation and the governmental interest justifying it; 2) whether
there is an alternative means available to the inmate to exercise the
right; 3) would the accommodation have a significant ripple effect on
guards, other inmates, and prison resources; and 4) is there an J
alternative that fully accommodates the prisoner at de minimus cost
to valid penological interests. Turner at 89-91.
The problem with using a reasonable standard is that it gives too much power
to institutions housing inmates, without accountability for their actions.

6

"[R]easonable opportunities must be afforded to all prisoners to
exercise their religious freedom guaranteed by the First and
Fourteenth Amendments." Cruz v. BetQ/ 405 US 319/ 322 n. 2 (1972).
However/ in Bartunek's case/ neither Bartunek nor any of ;thec.other inmates
in HCDC's Maximum Security Unit were given such opportunities during his
entire six (6) month stay.

Never-the-less/ HCDC convinced the courts that

since they did nothing actively to prevent Bartunek from practicing his
religion/ i.e • / they had no rules banningr^ny.::oEc.B&rturr4k-' sdfeliqhaus
practices/ they could not be held responsible for restraining his religious
liberty.

This Court has recognized that:

"Whether from indifference/ ignorance/ bigotry/ or lack of resources/
some institutions restrict religious liberty in egregious and > r: unneccessary ways." Cutter v. Wilkinson/ 544 US 709, 716 (2005).
Congress recognized this problem when it enacted 42 U,i-S.C. § 2000cc/
et seq. ("RLUIPA")/ "to provide greater protection for religious liberty
than do this Court's First Amendment precidents."
139 S. Ct. Ill (2019).

Murphy v. Collier/

42 U.S.C. § 2000cc-l(a) states:

No government shall impose a substantial burden on the religious
exercise of a person residing innor confined to an institution • • •
unless the burden on that person
(1) is in furtherance of a ^compelling government interest; and
(2) is the least restrictive means of furthering that compelling
government interest'.' (Id.).
While most individuals understand their religious practices are protected
by the First Amendment to the U.S. Constitution;/; they generally are
unfamilliar with RLUIPA/ and thus fail to use this as grounds to protect
these rights.

Even when considering RLUIPA/ the courts still rely heavily

on the "reasonable" standard/ which is insufficient to protect pretrial
detainees' First/ Fifth/ and Fourteenth Amendment rights.

,

The ruling in Bartunek's case shows how difficult the courts job is
when evaluating religious free exercise claims under the First Amendment

7

without further guidance from the Supreme Court.

Bartunek's ruling conflicts

with previous Circuity's..rulings.--onrsiMlar cases:
Love v. Reed/ 216 F.3d 682/ 689 (8th Cir. 2000) (A rule
See/ e.g • / ____________
imposes a substantial burden on the free exercise of religion-when it
provides "no consistant and dependable way to observe a religious
practice."); Green v. Solano County Jail/ 513 F.3d 982/ 988 (9th Cir.
2008) (A ban on group worship is a substantial burden on the prisoner
whose belief included group worship.); Murphy v. Missouri Dep't of
_____
Corr • / 372 F.3d 979/ 989 (8th Cir. 2004) (The prisons refusal to
permit group worship was not the least restrict means necessary to
preserve its security interest pursuant to 42 U.S.C. § 2000cc/ et seq.)'.
In Bartunek's case/ HCDC offered no legitimate penologicalinterestias :to,.why
Bartunek and other inmates in the Maximum Security Unit were not provided
with any consistent and dependable way to obser their religious practices
so fundamental to their beliefs.

Clearly HCDC and Bahensky violated

. r:

Bartunek's First/ Fifth/ and Fourteenth Amendment rights and 42 U.S.C. §
2000cc/ and Summary Judgment and Qualified Immunity should not have been
granted.
Bartunek's case presents an ideal vehicle for resolving the question
asked.

His case shows how law officials/ prosecutors/ legislators/ and

courts can work together to justify depriving individuals of their
constitutional rights/ and how hard it is to convince them to take .
responsibility for their actions/inactions/ and to correct the injustices
that they created.
Much insight can be gained by looking at the events preceeding
Bartunek's incarceration at HCDC.
released.

Bartunek was initially ordered to be

Had the government not appealed the release order/ that would have

been the end of it.

However/ Judge Robert Rossiter Jr. re-opened the

detention hearing/ even though the government had no new evidence nor change
in circumstances to merit it.

Instead of following 18 U.S.C. § 3142(j); a

8

presumption of innocense/ Judge Rossiter used 18 U.S.C. § 3142(e)/ a
presumption of dangerousness (based solely on the alleged crime committed)/
to detain Bartunek instead.

Then a decision was made by the U.S. Marshals

to transfer Bartunek to HCDC without a hearing/ without justification/ or
any due process/ and thus deprived Bartunek of his First/ Fifth/ and
Fourteenth Amendment rights.
Whe Bartunek claimed his constitutional rights were being violated/
his cries for help fell on deaf ears.

Not only did Bartunek appeal to HCDC

for help ghrough the administrative grievance process/ he also asked HCDC
Director Todd Bahensky/ the Nebraska Ombudsman/ and the court for help.
Bartunekctried to reach out to two pastors/ one in a local church/ and one
from a pastor at DCDC/ but never received a reply form either of them.

When

Bartunek asked to be reassigned to a general population unit at HCDC in order
to gain access to pastors/ services/ and other religious programs/ his :..
request was denied/

this time not because he was deeme a danger to the

community/ but rather that the community would pos a danger to him.

Bartunek

also asked HCDC to hold group services or be taken to a church/ but this
request was ..ignored.

Furthermore/ there was no reason that HCDC could not

have worked with the Marshals to tranfer Bartunek to another "jail" or
:"detention center" such as DCDC/ that allowed Bartunek to exercise his
religious freedom.

The fact is; that HCDC had a financial incentive not to

give up bartunek.

They were making $75/day for each Federal inmat that they

housed.

(See Appendix [10]).

Bartunek's case is not unique.

Every day/ pretrial detainees are

deprived of various constitutional rights by government officials who appear
on the surface to be acting in a "reasonable" manner.

While incarceration

by its very nature changes an individual's status for convicted prisoners/ it
9

Should not do so for pretrial detainees who are innocent until proven
guilty beyond a reasonable doubt.
The legislature has tried and failed to remedy the situation.

When

thy passed the Bail Reform Act of 1984/ the legislators believed that more
individuals would receive bail and that detainees would be separated from
convicted criminals/ allowing them the freedom that they deserved.
the exact opposite occured.

However/

And because the '’reasonable" standard is still

used by the courts in judging the infringment of pretrial detainees rights/
RUILPA has done little to improve the situation.
Bartunek's Petition should be granted to allow the Supreme Court to
give precise guidelines as to the proper standard for analysis of pretrial
detainees' free exercise claims.

The current genteral standard of "•

"reasonableness" to review such claims is inadequate to his task.
case/

As in this

"The message to prison officials is cleari merely act "responsibily"

and your actions will be upheld."

O'Lone at 356.

"The Constitution was not adopted as a means of enhancing the
efficiency with which government officals conduct their affairs/ nor as a
blueprint for enduring sufficient reliance on administrative expertise.
Rather it was meant to provide a bulwork against infringments that might
otherwise be justified as necessary expedients of governing.

(Id.).

"While [the Courts] must give due consideration to the needs of those
in power/ [ their] role is to ensure that fundamental restraints on
that power are enforced/ If_a_directive that officials act
"reasonably", were deemed sufficient to check all exercises of power/
the Constitution would hardly be necessary." (Id.).
Bartunek's case clearly shows how the lack of guicance from the courts
allows institutions to easily deprive pretrial detainees of their
constitutional rights.

They can claim/ "we are not responsible" for making

sure pretrial detainees constitutional rights are upheald/ because "we did
10

nothing" to "ban" them from practicing their faith.

However/ because of the

sever limitations of Bartunek's freedom imposed by being incarcerated at
HCDC/ they did/ by defactO/ "ban" him from practicing his religion.
This Court's answer to the questions presented herein will be outcome
determinative in this case/ and its impact will be widespread,

This Court

should therefore accept this opportunity to decide these importantant
Constitutional issues.
CONCLUSION
For the forgoing reasons/ the Court should grant this Petition
for a Writ of Certiorari.
Respectfully submitted/

M*

f.

y

artunek/ Petitioner
29948-047
Federal Correctional Institution
P.O. Box 9000
Seagoville/ TX 75159

11

fill IffooZl
Date

